WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-6132

State of Wisconsin

Mose B. Coffee

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

to

Signature
Date.

November 12, 2020

(Type or print) Name

John A. Blimling
Mr.

Firm

Wisconsin Department of Justice

Address

17 West Main Street, P.O. Box 7857

City & State
Phone

❑ Ms. 0 Mrs. 0 Miss

Madison, Wisconsin

608-267-3519

Email

Zip 53707-7857
blimlingja@doj.state.wi.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Andrew Robert Hinkel

RECEIVED
NOV 2 5 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

